                                  INSPECTION




 NATIONAL PARK SERVICE
 VISITOR DONATION BOXES




Report No.: ER-IS-NPS-0014-2011     March 2012
              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OF THE INTERIOR

                                                                                       MAR 0 8 2012
Memorandum

To:            Jonathan B. Jarvis
               Director, National Park Service

From:          Kimberly Elmore ~~ ~
               Assistant Inspector General for Audits, Inspections, and Evaluations

Subject:       Inspection- National Park Service Visitor Donation Boxes
               Report No. ER-IS-NPS-0014-2011

        This memorandum transmits the findings of our inspection report to determine whether
National Park Service (NPS) internal controls over cash collected in visitor donation boxes are
adequate, and whether the parks spent donated funds appropriately. We visited 14 parks in 5
states and 1 territory and reviewed NPS visitor donation box policies and procedures for fiscal
years 2010 and 2011.

       We found that, with few exceptions, park employees and authorized nonprofit
organizations practiced adequate internal controls and security procedures for visitor donation
boxes as outlined in NPS policy. We also found that the parks appropriately restricted use of
donation box funds to park purchases and activities, such as trail maintenance, educational
materials, and structural improvements.

        We did find, however, that select improvements in NPS internal controls are necessary to
ensure the continued integrity of cash collected from visitor donation boxes at national park
locations. Our recommendations address these internal control improvements.

        Please provide us with your written response to this report within 30 days. The response
should provide information on actions taken or planned to address the recommendations, as well
as target dates and title(s) of the official(s) responsible for implementation. Please address your
response to:

               Ms. Kimberly Elmore
               Assistant Inspector General for Audits, Inspections, and Evaluations
               U.S. Department of the Interior
               Office of Inspector General
               MS 4428 -MIB
               1849 C Street, NW.
               Washington, DC 20240




                         Office of Audits, Inspections, and Evaluations 1 Washington , DC
        If you have any questions regarding this memorandum or the subject report, please do not
hesitate to contact me at 202-208-5512.




                                               2
Table of Contents
Results in Brief ....................................................................................................... 1

Introduction ............................................................................................................. 2
   Objective ............................................................................................................. 2
   Background ......................................................................................................... 2

Findings................................................................................................................... 4
   Internal Control Procedures ................................................................................ 4
   Cash Controls ...................................................................................................... 5
   NPS Internal Control Reviews ............................................................................ 7

Conclusion and Recommendations ......................................................................... 9
   Conclusion........................................................................................................... 9
   Recommendation Summary ................................................................................ 9

Appendix 1: Scope and Methodology................................................................... 10
   Scope ................................................................................................................. 10
   Methodology ..................................................................................................... 10
Results in Brief
We inspected 14 national parks in 5 states and 1 territory to determine whether
National Park Service (NPS) internal controls for managing visitor donation
boxes are adequate, and whether parks spent donated funds appropriately.

We found that, generally, NPS employees and authorized nonprofit organizations
practiced adequate internal controls and security procedures as outlined in NPS
policy for visitor donation boxes. We also found that the parks appropriately
restricted use of donation box funds to park purchases and activities—donations
were spent on park enhancements like trail maintenance, educational materials,
and structural improvements.

We did find, however, that donation box theft occurred in almost 30 percent of
parks we inspected. Enforcement of internal control policies and procedures at
each park, timely retrieval and deposit of cash collections, and increased
frequency and comprehensiveness of NPS internal controls reviews are needed to
minimize recurrences.




                                                                                  1
Introduction
Objective
We conducted this inspection using a judgmental sample of 14 NPS parks to
determine the adequacy of internal controls for managing visitor donation boxes,
and to assess whether the parks spent donated funds appropriately.

Background
The national park system includes 397 parks and other sites visited by
approximately 275 million visitors annually. National parks receive Federal
funding but also rely on direct donations, such as funds from visitor donation
boxes. According to NPS policy, donations are used to enhance NPS programs
and help achieve excellence. NPS states that “one of the most convenient ways for
park visitors to express their support is through on-site donation boxes. Twenty-
five years ago donation boxes were an exception in parks. Today, most parks have
one or more donation boxes, and they are an integral part of a park’s fundraising
strategy.” For the 14 national parks visited during our inspection, the donation
box cash collections produced 4 percent to 100 percent of total park donation
dollars received. The amounts of donation box cash collected in fiscal year 2011
at these 14 parks ranged from $1,263 to $54,213 (see figure 1).

                                                                             Percent of
                                                      Donation Box
       Park Inspected and Location                                           Total Park
                                                       Collections
                                                                             Donations
 Manassas National Battlefield Park, VA                          $3,099              20%
 Chesapeake & Ohio Canal National
                                                                 $5,885                 15%
 Historical Park, MD
 Fredericksburg Military Park, VA                               $18,779                 48%
 Canyon de Chelly National Monument, AZ                          $3,314                 47%
 Grand Canyon National Park, AZ                                 $25,111                 12%
 Chaco Culture National Historic Park, AZ                        $1,833                 35%
 Rocky Mountain National Park, CO                               $32,067                 18%
 Great Sand Dunes National Park, CO                              $5,508                 72%
 Black Canyon of the Gunnison National
                                                                 $1,643                100%
 Park, CO
 Golden Gate National Recreation Area, CA                       $54,213                 73%
 San Francisco Maritime National Historical
                                                                $14,727                 66%
 Park, CA
 Point Reyes National Seashore, CA                              $14,382                 28%
 Virgin Islands National Park, St. John, VI                      $2,913                 41%
 Christiansted National Historic Site, St.
                                                                 $1,263                   4%
 Croix, VI

Figure 1. Donation box funds collected and the percentage of total park donations in fiscal
year 2011 for the 14 parks visited.

                                                                                              2
NPS policy allows installation of visitor donation boxes on park property either
by the park or by an authorized park fundraising partner, as long as NPS receives
100 percent of the donations. Donation boxes may only be placed on NPS
property or on jointly administered property for NPS benefit. NPS must account
for donation boxes on jointly administered property, such as joint visitor centers,
heritage areas, or leased facilities outside of parks, in the same manner as those
located on NPS-controlled property, and NPS may authorize the placement of an
authorized fundraising partner’s donation box within the park through a written
agreement. An authorized fundraising partner is typically a nonprofit organization
that enters into an agreement with the park to provide resources that further the
park’s mission.

In addition, NPS policy requires that the park superintendent approve the text on
donation box signs as well as the location of the donation box. Donation boxes
must clearly advise the public how the park will use funds collected. Policy does
not, however, specifically address oversight or monitoring of nonprofit donation
boxes, and any oversight performed results from the terms of the written
agreement between each park and its respective partner.

In June 2009, the Government Accountability Office (GAO) issued GAO-09-386,
“Donations and Related Partnerships Benefit Parks, but Management Refinements
Could Better Target Risks and Enhance Accountability.” According to the report,
NPS annually receives hundreds of millions of dollars in donated funds, goods,
and services to support national parks and other sites. GAO cited average annual
cash donations to parks nationwide ranged from less than $10 to more than $4.5
million over the last 10 years, with the majority of parks receiving less than
$50,000 a year.




                                                                                    3
Findings
We found that in most instances NPS effectively manages cash collections from
its donation boxes at the parks we inspected. The parks appropriately restricted
use of donation box funds to park purchases and activities, and spent donation box
funds on park enhancements such as trail maintenance, interpretive displays,
promotional brochures, and visitor center improvements. We did find, however,
that theft of cash from donation boxes is a recurring problem. Improving internal
controls relative to monitoring, retrieving, and depositing cash, and enforcing
internal control policies could further ensure the integrity of the cash collection
process for donation boxes.

Internal Control Procedures
During our inspection, we found that not all park employees understood and
followed all internal control procedures. Eight of the 14 parks visited had
inadequate or missing written internal control procedures for visitor donation box
collections and deposit functions. NPS policy requires parks administering visitor
donation boxes to maintain an official list of designated collection officers and for
all employees handling cash to undergo special background checks. We found,
however, that the policy was not well understood by park supervisory personnel
and other responsible officials.

At Rocky Mountain National Park, the partner organization—Rocky Mountain
Nature Association (RMNA)—manages the park’s visitor donation boxes. At the
time of our visit, RMNA officials told us that the internal control procedures were
incomplete and were being revised. Written procedures specifically addressing
handling and depositing of donation box receipts were subsequently forwarded to
OIG.

Departmental policy, cited in NPS’s internal control questionnaire (2011),
requires that parks administering visitor donation boxes designate collection
officers and maintain supporting documentation, but neither Canyon de Chelly
National Monument nor Chaco Culture National Historical Park has
documentation identifying collection officers.

NPS policy requires employees handling cash to obtain a special security
clearance. In addition to the Special Agency Check, which is a prerequisite for
Federal employment, all park officials handling cash must undergo a Minimum
Background Investigation (MBI) to ensure that he or she is trustworthy and does
not have a criminal background. We learned that some collection officers at the
Chesapeake & Ohio Canal National Historical Park (C&O) have not obtained
MBIs. The C&O supervisory park ranger explained that MBIs are typically not
completed at parks that do not collect entry fees.




                                                                                    4
Weak enforcement of existing policy creates vulnerabilities and threatens the
integrity of cash donations, especially in remote locations.

 Recommendation

    1. Enforce existing policy requiring:

            a. written internal control policies at each park;
            b. parks administering visitor donation boxes to designate
               collection officers and to maintain supporting documentation;
               and
            c. employees handling cash to undergo a Minimum Background
               Investigation.


Cash Controls
NPS can also improve the process of retrieving and depositing cash from donation
boxes. We found that parks do not regularly remove cash from visitor donation
boxes or deposit funds on a weekly basis as required, which creates a greater
opportunity for theft. We learned that 4 of the 14 parks, or almost 30 percent of
the parks, we inspected experienced visitor donation box theft in the last 5 years.
None of these four parks removed funds on a weekly basis.

We learned that money was stolen from a donation box at Chaco Culture National
Historical Park. Park officials installed a temporary security camera that later
identified the culprit in an attempt to steal additional cash. We learned that the
park does not deposit donation box monies until cash amounts, including park
fees, equals $5,000. U.S. Treasury Department regulations require weekly
deposits or when $5,000 is reached, whichever comes first.

In addition, officials at Grand Canyon National Park suspected a Grand Canyon
Association (GCA) seasonal employee of stealing from the visitor donation box.
GCA, the park’s fundraising partner, installed a temporary security camera, which
later verified the identity of the thief. GCA appoints GCA employees to empty
and deposit funds from all Grand Canyon donation boxes, but the boxes are
emptied and deposited only on a monthly basis.




                                                                                 5
Figure 2. Donation box in Grand Canyon National Park.

Canyon de Chelly National Park also reported theft. The park’s visitor center was
broken into, the donation box was smashed, and the cash was taken. Park officials
typically collect donation box money on a monthly basis, but do not make
deposits regularly and can take up to 3 months to make a deposit.

Finally, Fredericksburg and Spotsylvania National Military Park reported two
recent thefts, one from its indoor visitor center and the other from an outdoor
donation box. Park officials installed a temporary security camera inside the
visitor center and identified the thief—a maintenance employee with access to the
building before opening hours. On a separate occasion, a park employee, known
to park officials, also stole from the outdoor donation box. We learned that
donation box collections at and deposits from this park typically occur on a
monthly basis but less frequently during the off-season.

 Recommendation

     2. Require NPS collection officers to remove cash from donation boxes
        and to make deposits on a weekly basis, as required by policy, to reduce
        the incentive and opportunity for theft.



                                                                                6
NPS Internal Control Reviews
NPS targets internal control reviews at large parks on a 2- to 4-year rotating
schedule. It does not, however, conduct these reviews at every park and rarely
reviews smaller parks. The reviews also do not always address cash collected
from visitor donation boxes. We found that since 2003, when NPS began
conducting internal reviews, 5 of the 14 parks we visited have been reviewed by
NPS. The internal control review questionnaire provides only a limited
assessment of the visitor donation box collection process, and it is sometimes
skipped altogether. According to NPS, “Given that donations received via
donation boxes are not material to the NPS financial statements, the audit of the
process during our park audits is not always accomplished due to the need to
focus on higher priority risks.”

We learned that although NPS performed internal control reviews at Golden Gate
National Recreation Area in 2008 and Grand Canyon National Park in 2011,
donation box management was not assessed. Donation boxes at both of these
parks are managed by nonprofit entities. At Grand Canyon National Park, NPS
officials stated that “due to the donation boxes being under the Association’s
responsibilities, the outlying geographic locations of the donation boxes, and our
restricted time constraints, we did not examine the donation boxes as part of our
review.”

NPS’s donation account shows annual donation information per park, but it does
not separately track donation box funds or any money obtained through
authorized nonprofit entities. For example, Grand Canyon National Park’s
partner, GCA, manages the park’s 27 donation boxes, including outdoor trail
boxes. GCA collected $25,111 from visitor donation boxes and a total of
approximately $750,000 from all sources in fiscal year (FY) 2011. Grand Canyon
National Park’s donation account for FY 2011 only reflected a total of $205,992,
which was obtained entirely from donations paid directly to Grand Canyon
National Park. The account did not include any of the donation money collected
by GCA. Absent NPS reviews, NPS must rely solely on information provided to
them by its partners regarding the cash value collected from visitor donation
boxes managed by nonprofit entities.

Great Sand Dunes National Park and Preserve also partners with a nonprofit
organization, Friends of the Dunes, which provides a forum for citizen
involvement and financial aid for the park. During our visit, we learned that a
Friends of the Dunes employee manages the visitor center donation box process,
including collecting the cash, counting the cash unsupervised at home, and later
depositing the cash. This absence of appropriate separation of duties and physical
controls over cash donations presents an opportunity for theft.




                                                                                    7
Recommendation

  3. Consider revising internal control review procedures to require a
     review of park visitor donation box collections, including those managed
     by authorized nonprofit entities.




                                                                            8
Conclusion and Recommendations
Conclusion
OIG found that, with few exceptions, NPS employees and authorized nonprofit
organizations practiced adequate internal controls and security procedures for
visitor donation boxes as specified in NPS policy. We also found that parks
appropriately restrict use of donation box cash collected to appropriate park
purchases and activities related to park enhancements. Select improvements,
however, are necessary to ensure the continued integrity of cash collected from
visitor donation boxes at national park locations.

Recommendation Summary
We recommend that NPS:

   1. Enforce existing policy requiring:

           a. written internal control policies at each park;
           b. parks administering visitor donation boxes to designate collection
              officers and to maintain supporting documentation; and
           c. employees handling cash to undergo a Minimum Background
              Investigation.

   2. Require NPS collection officers to remove cash from visitor donation
      boxes and to make deposits on a weekly basis, as required by policy, to
      reduce the incentive and opportunity for theft.

   3. Consider revising internal control review procedures to require a review of
      park visitor donation box collections, including those managed by
      authorized nonprofit entities.




                                                                                   9
Appendix 1: Scope and Methodology
Scope
We performed our inspection in accordance with the Council of the Inspectors
General on Integrity and Efficiency “Quality Standards for Inspections.” We
reviewed NPS visitor donation box policies and procedures for fiscal years 2010
and 2011. We interviewed responsible officials in NPS’s Accounting Operations
Center and at each park inspected, as well as authorized nonprofit organizations
managing visitor donation boxes. OIG physically inspected visitor donation boxes
during site visits performed between October 6, 2011, and November 15, 2011.

Methodology
We judgmentally selected 14 parks for inspection across the country, including
several parks with several million visitors, parks with a quarter of a million to a
million visitors, and parks with fewer than a quarter of a million visitors. We
developed a questionnaire that covered the following areas: physical placement of
donation boxes, collection and counting of donation cash by park or authorized
personnel, cash security, use of monies and donation accounts, and signs on
donation boxes. OIG inspectors administered the questionnaires during park site
visits.




                                                                                10
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, Departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             Departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doioig.gov

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            202-208-5300

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
